  OFFICE OF JUSTICE PROGRAMS
SOUTHWEST BORDER PROSECUTION
INITIATIVE FUNDING RECEIVED BY
     EL PASO COUNTY, TEXAS

     U.S. Department of Justice
   Office of the Inspector General
            Audit Division


    Audit Report GR-60-10-005
            May 2010
                    OFFICE OF JUSTICE PROGRAMS
                  SOUTHWEST BORDER PROSECUTION
                  INITIATIVE FUNDING RECEIVED BY
                       EL PASO COUNTY, TEXAS

                           EXECUTIVE SUMMARY


      The U.S. Department of Justice, Office of the Inspector General,
Audit Division, has completed an audit and issued a revised report on
the Southwest Border Prosecution Initiative (SWBPI) funding awarded
by the Office of Justice Programs (OJP) to El Paso County, Texas. This
revised report replaces a report issued in September 2007. 1 As of
July 11, 2007, El Paso County had received SWBPI funding on a
pro-rata basis totaling $13,470,120.

      Many drug and other criminal cases occurring along the
southwest border are initiated by a federal law enforcement agency or
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking
Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces
(OCDETF). Many U.S. Attorneys have developed prosecution
guidelines that govern the most common violations of federal law.
These prosecution guidelines are used by law enforcement agencies to
determine whether to file a case in federal, state, or county court. As
a result, many federally initiated cases occurring near the southwest
border are referred to the state or county for prosecution.

      The SWBPI was established in fiscal year (FY) 2002, when
Congress began appropriating funds to reimburse state, county,
parish, tribal, and municipal governments for costs associated with the
prosecution of criminal cases declined by local U.S. Attorneys’ offices.
Reimbursements received from SWBPI funding may be used by
applicant jurisdictions for any purpose not otherwise prohibited by
federal law. For FY 2009, Congress appropriated $31 million for the
SWBPI.

      The objective of our audit was to determine if the SWBPI
reimbursements received by El Paso County were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the SWBPI.

       1
          After the prior report was issued, we found errors we had made related to
the amount of questioned costs. As a result, we conducted additional fieldwork and
issued this revised report.
       We found that El Paso County claimed and was reimbursed for
cases that were ineligible under the SWBPI guidelines. Specifically, we
identified questioned costs totaling $5,100,526 for 1,044 cases that
were: (1) not federally initiated, (2) disposed of in FY 2001 prior to
the initiation of the SWBPI Program, (3) duplicate cases, (4) claimed
under the both prosecution and pre-trial detention category that did
not meet the requirements for pre-trial detention, (5) investigated or
prosecuted concurrently, (6) submitted in the wrong disposition
category, and (7) submitted in the wrong quarter. 2

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope,
and Methodology appear in Appendix I.




       2
         The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of
questioned costs and funds to better use.

                                       - ii -
                    OFFICE OF JUSTICE PROGRAMS
                  SOUTHWEST BORDER PROSECUTION
                  INITIATIVE FUNDING RECEIVED BY
                       EL PASO COUNTY, TEXAS


                              TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

     Background.......................................................................... 1

FINDINGS AND RECOMMENDATIONS ....................................... 5

     Case Eligibility ...................................................................... 5
     Accuracy of Reimbursements ................................................. 7
     Recommendations ................................................................ 9

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY ...... 11

APPENDIX II – SCHEDULE OF DOLLAR-RELATED FINDINGS ... 12

APPENDIX III – DETAILS OF UNALLOWABLE CASES ............... 14

APPENDIX IV – EL PASO COUNTY’S RESPONSE TO THE
    DRAFT REPORT................................................................ 27

APPENDIX V – OFFICE OF JUSTICE PROGRAM’S RESPONSE
    TO THE DRAFT REPORT ................................................... 29

APPENDIX VI – ANALYSIS AND SUMMARY OF ACTIONS
    NECESSARY TO CLOSE REPORT ....................................... 33
                               INTRODUCTION


      The Office of the Inspector General, Audit Division, has
completed an audit and issued a revised report on the Southwest
Border Prosecution Initiative (SWBPI) funding awarded by the
U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to
El Paso County, Texas. This revised report replaces a report issued in
September 2007.1 The objective of the audit was to determine
whether the SWBPI reimbursements received by El Paso County were
allowable, supported, and in accordance with applicable laws,
regulations, and terms and conditions of the SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of
Arizona, California, New Mexico, and Texas did not prosecute drug
cases resulting from the illegal importation of controlled substances at
U.S. borders. Typically, these cases were prosecuted exclusively by
U.S. Attorneys in federal courts. However, in late 1994,
U.S. Attorneys, and state and local prosecutors established
partnerships through which the state and local governments began
prosecuting federally referred criminal cases. These partnerships
allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden.
Congress recognized this problem and began appropriating funds
under the SWBPI in fiscal year (FY) 2002 to support state and local
prosecutions along the southwest border.

       For FY 2009, Congress appropriated $31 million in funding for
the SWBPI, Pub. L. No. 111-8 (2009), to reimburse state, county,
parish, tribal, or municipal governments for costs associated with the
prosecution of criminal cases declined by local U.S. Attorneys’ offices.
Reimbursements received from the SWBPI funding may be used by
applicant jurisdictions for any purpose not otherwise prohibited by
federal law; however, the direct support and enhancement of
jurisdictions’ prosecutorial and detention services are encouraged.


       1
          After the prior report was issued, we found errors we had made related to
the amount of questioned costs. As a result, we conducted additional fieldwork and
issued this revised report.


                                       -1-
      For cases submitted for prosecution or pre-trial detention
services only, each eligible case may receive the following maximum
reimbursement, based upon the length of disposition and the
availability of funds:

  •   $1,250 for each case of 1 to 15 days,

  •   $2,500 for each case of 16 to 30 days,

  •   $3,750 for each case of 31 to 90 days, and

  •   $5,000 for each case over 90 days.

      For cases submitted for both prosecution and pre-trial detention
services, each eligible case submitted for reimbursement, may receive
the following maximum reimbursement based upon the length of
disposition and the availability of funds:

  •   $2,500 for each case of 1 to 15 days,

  •   $5,000 for each case of 16 to 30 days,

  •   $7,500 for each case of 31 to 90 days, and

  •   $10,000 for each case over 90 days.

      The disposition period of a case with both prosecution and
pre-trial detention services is calculated using the prosecution
disposition period. To meet the pre-trial detention services
requirement, the individual must be incarcerated overnight.




                                 -2-
      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform,
pro-rata basis. The following table shows the pro-rata reimbursement
percentages for El Paso County.

           PRO-RATA REIMBURSEMENT BASIS TO EL PASO COUNTY
                                                       PERCENTAGE
    REPORTING PERIOD           START DATE   END DATE
                                                       REIMBURSED
 FY05   1st Quarter              10/01/04   12/31/04      49.29%
 FY05   2nd Quarter              01/01/05   03/31/05      44.08%
 FY05   3rd Quarter              04/01/05   06/30/05      47.40%
 FY05   4th Quarter              07/01/05   09/30/05      50.16%
 FY06   1st Quarter              10/01/05   12/31/05      53.18%
 FY06   2nd Quarter              01/01/06   03/31/06      47.61%
 FY06   3rd Quarter              04/01/06   06/30/06      43.09%
 FY06   4th Quarter              07/01/06   09/30/06      44.05%
Source: Office of Justice Programs

     As shown in the following table, El Paso County received
reimbursements from SWBPI funds totaling $13,470,120 from
FYs 2002 through 2006. El Paso County did not request
reimbursements for the second and third quarters of FY 2004. There
were no SWBPI funds available for the fourth quarter ended
September 30, 2004.




                                      -3-
                     REIMBURSEMENTS TO EL PASO COUNTY 2
    REPORTING            START                       AMOUNT              AMOUNT
                                     END DATE
      PERIOD              DATE                      REQUESTED          REIMBURSED
 FY02 all Quarters      10/01/01      09/30/02     $5,038,750          $5,038,750
 FY03 1st & 2nd
                        10/01/02      03/31/03      2,162,500            2,162,500
 Quarters
 FY03 3rd Quarter       04/01/03      06/30/03        855,000            855,000
 FY03 4th Quarter       07/01/03      09/30/03      1,037,500          1,037,500
 FY04 1st Quarter       10/01/03      12/31/03      1,192,500          1,192,500
 FY04 2nd Quarter       01/01/04      03/31/04              0                  0
 FY04 3rd Quarter       04/01/04      06/30/04              0                  0
 FY05 1st Quarter       10/01/04      12/31/04        957,500            471,924
 FY05 2nd Quarter       01/01/05      03/31/05      1,068,750            471,111
 FY05 3rd Quarter       04/01/05      06/30/05      1,095,000            519,045
 FY05 4th Quarter       07/01/05      09/30/05        617,500            309,718
 FY06 1st Quarter       10/01/05      12/31/05        748,750            398,196
 FY06 2nd Quarter       01/01/06      03/31/06        785,000            373,772
 FY06 3rd Quarter       04/01/06      06/30/06        711,250            306,443
 FY06 4th Quarter       07/01/06      09/30/06        757,500            333,661
 TOTAL                                                              $13,470,120
Source: Office of Justice Programs




       2
          The difference in the total amount is due to rounding, in that the sum of
individual numbers prior to rounding may differ from the sum of the individual
numbers rounded.


                                         -4-
               FINDINGS AND RECOMMENDATIONS


      We found that El Paso County claimed and was reimbursed
      for cases that were ineligible under the SWBPI guidelines.
      Specifically, we found cases that were: (1) not federally
      initiated, (2) disposed of in FY 2001 prior to the initiation
      of the SWBPI Program, (3) duplicate cases, (4) claimed
      under the both prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial
      detention, (5) investigated or prosecuted concurrently,
      (6) submitted in the wrong disposition category, and
      (7) submitted in the wrong quarter. As a result, we
      identified questioned costs totaling $5,100,526.


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any
federally initiated criminal case that the U.S. Attorney declined to
prosecute and referred to the state or local government for
prosecution, which was prosecuted by the state or local government
and disposed of during an eligible reporting period. The SWBPI
guidelines define federally initiated as a case resulting from a criminal
investigation or an arrest involving federal law enforcement authorities
for a potential violation of federal criminal law. This may include
investigations resulting from multi-jurisdictional task forces, e.g., High
Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug
Enforcement Task Forces (OCDETF). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case
was formally declined and referred by a U.S. Attorney, or through a
blanket federal declination-referral policy, an accepted federal law
enforcement practice, or by federal prosecutorial discretion.” Federally
referred cases that are declined and not prosecuted by the state or
local government are ineligible for reimbursement.

        We analyzed 2,445 cases listed on El Paso County’s master case
list to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines.

      Based on our review, we found that El Paso County received
SWBPI funds totaling $5,100,526 for cases that were not eligible for
reimbursement pursuant to the SWBPI guidelines. A detailed listing of
the cases claimed by El Paso County that were not eligible for


                                  -5-
reimbursement is provided in Appendix III. Specifically, we found that
El Paso County:

  •   Received unallowable reimbursements totaling $2,411,781 for
      572 bond forfeiture cases submitted by the County Attorney’s
      Office that were not federally initiated.

  •   Received unallowable reimbursements totaling $780,000 for
      81 juvenile cases that were disposed of in FY 2001, prior to the
      inception of the program.

  •   Received unallowable reimbursements totaling $605,000 for
      63 juvenile cases that were duplicates, already previously
      claimed.

  •   Received excess reimbursements totaling $553,527 for
      187 cases submitted by the District Attorney’s Office under the
      both prosecution and pre-trial detention category that did not
      meet the requirements for pre-trial detention reimbursement.

  •   Received unallowable reimbursements totaling $357,270 for
      54 cases submitted by the District Attorney’s Office that were
      investigated or prosecuted during concurrent periods of time
      with cases involving the same defendant that were also
      submitted for reimbursement.

  •   Received excess reimbursements totaling $212,500 for
      61 juvenile cases that were erroneously submitted in the wrong
      disposition category, based on numbers of days from arrest to
      disposition.

  •   Received unallowable reimbursements totaling $95,000 for
      10 juvenile cases that were not federally initiated.

  •   Received unallowable reimbursements totaling $49,680 for
      10 cases submitted by the District Attorney’s Office that were
      not federally initiated.

  •   Received unallowable reimbursements totaling $27,500 for
      three juvenile cases that were investigated or prosecuted during
      concurrent periods of time with cases involving the same
      defendant that were also submitted for reimbursement.




                                 -6-
   •   Received unallowable reimbursements totaling $6,652 for
       two juvenile cases that were not submitted for reimbursement in
       the same quarter in which the case was disposed.

   •   Received unallowable reimbursements totaling $1,616 for
       one juvenile case submitted under the both prosecution and
       pre-trial detention category that did not meet the requirements
       for pre-trial detention reimbursement.

Accuracy of Reimbursements

      El Paso County requests reimbursements from SWBPI funds
through an on-line application available on the Bureau of Justice
Assistance website. Pursuant to the SWBPI guidelines, eligible cases
are reimbursed using a uniform payment per case schedule based on
the length of disposition, which is calculated from the date of the
suspect’s arrest through resolution. Resolution of the case is defined
as dismissal, conviction, or plea.

       We reviewed the reimbursement requests submitted by El Paso
County for the period October 1, 2001, through September 30, 2006,
to determine if the number of cases claimed for each disposition
category was supported by the detailed case listings obtained during
fieldwork. Based on our review, we determined that the
reimbursement requests were not always supported by the master
case listing resulting in excess reimbursements totaling $267,938, as
shown in Table 1.




                                  -7-
                                  TABLE 1
             RECONCILIATION OF CASES CLAIMED FOR REIMBURSEMENT
                                            Detailed
                              Amount      Case Listing
             OIG Total of   From Other     less Other    Amount OJP                  Percentage     Excess/
   Period      Detailed       Federal        Federal     Reported as                 Reimbursed     (Under)
   Ending    Case Listing     Funding       Funding       Requested    Difference      by BJA     Reimbursed
03/31/2003    $7,818,750      $537,500     $7,281,250     $7,201,250   ($80,000)      100.00%      ($80,000)
06/30/2003     1,065,000       135,521         929,479       855,000    (74,479)      100.00%        (74,479)
09/30/2003       942,500              0        942,500     1,037,500       95,000     100.00%           95,000
12/31/2003     1,116,250       257,138         859,112     1,192,500     333,388      100.00%         333,388
12/31/2004       976,250       133,557         842,693       957,500     114,807        49.29%          56,588
03/31/2005     1,228,750       129,326       1,099,424     1,068,750    (30,674)        44.08%       (13,521)
06/30/2005     1,235,000       134,113       1,100,887     1,095,000      (5,887)       47.40%         (2,790)
09/30/2005       711,250       112,088         599,162       617,500       18,338       50.16%           9,198
12/31/2005       872,500       115,040         757,460       748,750      (8,710)       53.18%         (4,632)
03/31/2006       937,500       152,436         785,064       785,000          (64)      47.61%            (30)
06/30/2006       985,000       166,813         818,187       711,250   (106,937)        43.09%       (46,079)
09/30/2006       945,000       176,820         768,180       757,500    (10,680)        44.05%         (4,705)
Total        $18,833,750    $2,050,352    $16,783,398    $17,027,500                                $267,938
Source: El Paso County and OJP.

         Pursuant to the SWBPI guidelines, the jurisdiction’s Chief
   Executive Officer (CEO) or designee must certify for quarterly SWBPI
   applications that the application does not contain payment claims for
   cases already fully reimbursed by federal funds, or when combined with
   other federal reimbursement, grant, or payment funds, does not make
   payment claims in excess of 100 percent of the cost of prosecuting and
   or detaining case defendants in the reporting period. The SWBPI
   guidelines also state that, at “submission, the CEO or designee certifies
   that the total application amount, when combined with other federal
   funds . . . does not exceed 100 percent of the jurisdiction’s annualized
   costs for prosecution and or pre-trial detention services.”

          At the time the SWBPI reimbursements were requested, El Paso
   County did not know the costs associated with prosecuting federally
   initiated cases. As a result, El Paso County officials conservatively
   backed out all other federal funding received to prosecute federally
   initiated cases, to ensure that the total amount of funding received did
   not exceed actual costs. However, subsequent to our review, El Paso
   County officials calculated actual costs for FYs 2004 through 2006 and
   discovered they did not need to back out all additional federal funding.
   The combination of the other federal funding as well as the SWBPI
   reimbursements did not exceed their actual costs. We recalculated
   El Paso County’s reimbursement requests backing out only the portion
   of other federal funding received that exceeded actual prosecution
   costs and found that El Paso County under claimed for SWBPI
   reimbursements by $299,813, as shown in Table 2.




                                                 -8-
                                     TABLE 2
           REVISED RECONCILIATION OF CASES CLAIMED FOR REIMBURSEMENT
                                             Detailed
                              Amount       Case Listing
             OIG Total of   From Other      less Other    Amount OJP                 Percentage     Excess/
   Period      Detailed       Federal         Federal     Reported as                Reimbursed     (Under)
                                     3
  Ending     Case Listing    Funding         Funding       Requested    Difference     by BJA     Reimbursed
3/31/2003     $7,818,750      $537,500      $7,281,250     $7,201,250   ($80,000)         100%     ($80,000)
6/30/2003      1,065,000       135,521          929,479       855,000    (74,479)         100%       (74,479)
9/30/2003        942,500               0        942,500     1,037,500       95,000        100%         95,000
12/31/2003     1,116,250        84,860        1,031,390     1,192,500     161,110         100%        161,110
12/31/2004       976,250        57,691          918,559       957,500       38,941      49.29%         19,194
3/31/2005      1,228,750        57,691        1,171,059     1,068,750   (102,309)       44.08%       (45,098)
6/30/2005      1,235,000        57,691        1,177,309     1,095,000    (82,309)       47.40%       (39,014)
9/30/2005        711,250        57,691          653,559       617,500    (36,059)       50.16%       (18,087)
12/31/2005       872,500        10,924          861,576       748,750   (112,826)       53.18%       (60,001)
3/31/2006        937,500        10,924          926,576       785,000   (141,576)       47.61%       (67,404)
6/30/2006        985,000        10,924          974,076       711,250   (262,826)       43.09%     (113,252)
9/30/2006        945,000        10,924          934,076       757,500   (176,576)       44.05%       (77,782)
Total        $18,833,750    $1,032,341     $17,801,409    $17,027,500                             ($299,813)
Source: El Paso County and OJP.

       Due to the fact that El Paso County was not required to back out
all of the other federal funding it received to prosecute federally
initiated cases, we are not questioning the $267,938 in excess
reimbursements identified in Table 1.

Recommendations

       We recommend that OJP:

1.     Remedy the $2,411,781 in questioned costs received by El Paso
       County for 572 bond forfeiture cases submitted by the County
       Attorney’s Office that were not federally initiated.

2.     Remedy the $780,000 in questioned costs received by El Paso
       County for 81 juvenile cases which were disposed of in FY 2001,
       prior to the inception of the program.

3.     Remedy the $605,000 in questioned costs received by El Paso
       County for 63 juvenile cases which were duplicates, already
       previously claimed.




       3
           Amounts from other federal funding were applied equally by quarter for
FYs 2005 and 2006 because actual costs provided by El Paso County were for the
entire fiscal year. As a result, we had to average the amounts of other federal funding
for each quarter that should have been deducted from El Paso County’s
reimbursement requests.


                                               -9-
4.    Remedy the $553,527 in questioned costs received by El Paso
      County for 187 cases submitted by the District Attorney’s Office
      under the both prosecution and pre-trial detention category that
      did not meet the requirements for pre-trial detention
      reimbursement.

5.    Remedy the $357,270 in questioned costs received by El Paso
      County for 54 cases submitted by the District Attorney’s Office
      that were investigated or prosecuted during concurrent periods
      of time with cases involving the same defendant that were also
      submitted for reimbursement.

6.    Remedy the $212,500 in questioned costs received by El Paso
      County for 61 juvenile cases that were erroneously submitted in
      the wrong disposition category, based on numbers of days from
      arrest to disposition.

7.    Remedy the $95,000 in questioned costs received by El Paso
      County for 10 juvenile cases that were not federally initiated.

8.    Remedy the $49,680 in questioned costs received by El Paso
      County for 10 cases submitted by the District Attorney’s Office
      that were not federally initiated.

9.    Remedy the $27,500 in questioned costs received by El Paso
      County for three juvenile cases that were investigated or
      prosecuted during concurrent periods of time with cases
      involving the same defendant that were also submitted for
      reimbursement.

10.   Remedy the $6,652 in questioned costs received by El Paso
      County for two juvenile cases that were not submitted for
      reimbursement in the same quarter in which the case was
      disposed.

11.   Remedy the $1,616 in questioned costs received by El Paso
      County for one juvenile case submitted under the both
      prosecution and pre-trial detention category that did not meet
      the requirements for pre-trial detention reimbursement.




                                 - 10 -
                                                          APPENDIX I

            OBJECTIVES, SCOPE, AND METHODOLOGY



      The objective of the audit was to determine whether
reimbursements claimed for costs under the SWBPI are allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the
inception of the reimbursements through September 30, 2006.

       We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise
stated in our report, the criteria we audit against are contained in the
SWBPI guidelines. We tested El Paso County SWBPI activities in case
eligibility and compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting
a sample of cases submitted for reimbursement. Judgmental sampling
design was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not
allow projection of the test results to all reimbursements received.

       We did not test internal controls for El Paso County as a whole.
The Single Audit Report for El Paso County was prepared under the
provisions of Office of Management and Budget Circular A-133 for the
fiscal year ended September 30, 2007. We reviewed the independent
auditor's assessment to identify internal control weaknesses and
significant non-compliance issues related to El Paso County or federal
programs. The auditor’s assessment disclosed no material control
weaknesses or significant non-compliance issues related to the SWBPI.
In addition, we performed testing of source documents to assess the
accuracy of reimbursement requests; however, we did not test the
reliability of the financial management system as a whole.




                                 - 11 -
                                                     APPENDIX II

           SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                             AMOUNT       PAGE

Unallowable County Attorney cases that        $2,411,781    6
  were not federally initiated.

Unallowable juvenile cases that were            780,000     6
  disposed of in FY 2001.

Unallowable juvenile cases that were            605,000     6
  disposed of in FY 2001.

Excess Reimbursements – District Attorney       553,527     6
  cases that did not meet the pre-trial
  detention requirement.

Unallowable District Attorney cases that        357,270     6
  were investigated or prosecuted
  concurrently with other allowable cases.

Excess Reimbursements – Juvenile cases          212,500     6
  that were submitted in the wrong
  disposition category.

Unallowable juvenile cases that were not         95,000     6
  federally initiated.

Unallowable District Attorney cases that         49,680     6
  were not federally initiated.

Unallowable juvenile cases that were             27,500     6
  investigated or prosecuted concurrently
  with other allowable cases.

Unallowable juvenile cases not submitted in       6,652     7
  the same quarter the case was disposed.




                                - 12 -
QUESTIONED COSTS:                                        AMOUNT           PAGE

Excess Reimbursements – Juvenile case                          1,616            7
  that did not meet the pre-trial detention
  requirement.

Total Questioned Costs: 4                             $5,100,526

TOTAL DOLLAR-RELATED FINDINGS                         $5,100,526




      4
          Questioned Costs are expenditures that do not comply with legal,
regulatory or contractual requirements, or are not supported by adequate
documentation at the time of the audit, or are unnecessary or unreasonable.
Questioned costs may be remedied by offset, waiver, recovery of funds, or the
provision of supporting documentation.



                                      - 13 -
                                         APPENDIX III

           EL PASO COUNTY
    DETAILS OF UNALLOWABLE CASES


     JUVENILE CASES CLAIMED IN FY 2001
  JPD             REF NO.    AMOUNT QUESTIONED
00,01297        00-250394         10,000
00,01416      2000-J07088         10,000
00,01435        00-280339         10,000
00,01286        00-245083         10,000
99,00912         99,00912         10,000
99,01407        00-245083         10,000
00,01599     EPPD00-314355        10,000
00,00764        00-320288         10,000
00,01619        00-326267         10,000
00,01657        00-335244         10,000
00,01671        00-339318         10,000
00,01720        00-349193           5,000
01,00016        01-017007         10,000
01,00017        01-017275         10,000
01,00109      MTF01-01023         10,000
01,00214      2001-B01133         10,000
00,00884        01-035303           7,500
01,00131        01-034253         10,000
01,00195      2001-B00850         10,000
01,00232      2001-B01194         10,000
01,00132        01-034253         10,000
01,00196      2001 B00-851        10,000
01,00206        01-045232         10,000
01,00291      2001-C01510         10,000
01,00301      2001-C01726         10,000
01,00279       01-0916398           7,500
01,00304      2001-C01753         10,000
01,00321        01-080034         10,000
01,00272      2001-B01326         10,000
00,01296      2000-C01834         10,000
01,00308      2001-C01766         10,000
01,00495      2001-D02164         10,000
01,00518      2001-D02334         10,000
01,00525        01-099331         10,000
01,00302      MTF01-01-059          7,500
01,00292        01-067003         10,000
01,00563      2001-D02658         10,000
01,00505        01-094417         10,000
01,00551      2001-D02569         10,000
01,00549      2001-D02530           5,000
98,00838      2001-D02677         10,000
01,00280       2001C01360         10,000


                  - 14 -
  JPD         REF NO.     AMOUNT QUESTIONED
01,00571    01-D02846           10,000
01,00576   2001-E02920          10,000
01,00492    2001-C0232          10,000
01,00643   2001-E03410          10,000
01,00642   2001-E03413          10,000
01,00572   2001-E02875          10,000
01,00590   2001-E03030          10,000
01,00620     01-E03269          10,000
01,00596   2001-E03139          10,000
01,00622     01-140037          10,000
01,00567     01-116013          10,000
00,00780     01-067003          10,000
01,00717     01-173304          10,000
01,00667   2001-F03676          10,000
01,00682     01-156360           7,500
01,00306   2001-C01757          10,000
99,00397     01-158004          10,000
01,00686     01-159407          10,000
01,00687   2001-F03869          10,000
01,00689     01-F03887          10,000
01,00709   2001-F04185          10,000
01,00710   2001-F04204          10,000
01,00507     01-F04293          10,000
01,00721   2001-F04319          10,000
01-00702   2001-F04186          10,000
01,00991   2001-G04919          10,000
01,00722   MTF01-06-124         10,000
01,00723   MFT01-06-124         10,000
01,01018     01,210063          10,000
99,00857     00-311283          10,000
98,01811     01-158004          10,000
98,00391   2001-H05721           5,000
01,01017   2001-G05031          10,000
01,01230   2001-H05919          10,000
01,01195   2001-H05721           5,000
01,01236   2001-H06018          10,000
01,01097   2001-H05345          10,000
01,01098   2001-H05345          10,000
00,01750     00-354278          10,000
                            $ 780,000




                - 15 -
           JUVENILE DUPLICATE CASES
  JPD              REF NO.     AMOUNT QUESTIONED
01,00721        MTM10-23-01          10,000
01,01457          01-275033           5,000
00,00287          01-274012          10,000
01,01473          01-277220          10,000
01,01549          01-292014          10,000
01,01437       MTF01-09-203          10,000
01,01608        2001-K07553          10,000
01,01652          01-313041          10,000
01,01653         01-M07747           10,000
97,01009       MTF01-010230          10,000
01,01630       EPSD2001-M07           7,500
00,00181          01-322203          10,000
01,01713        01-M9201613          10,000
99,00903          01-313040          10,000
01,01727          01-328075          10,000
99,00179        MTF0109198           10,000
01,01671          01-313040          10,000
01,01672          01-314357          10,000
01,00308        2001-N08628           7,500
01,01877        2001-408666           7,500
02,00005         2002-A0027          10,000
01,01875          01-349028          10,000
02,00227       MTF 02-02-049         10,000
02,00289        2002-B00931          10,000
02,00148        2002-A00503          10,000
00,01747          02-026072          10,000
00,00361        2002-C01360          10,000
02,00379          02-30703           10,000
02,00582        2002-D02273          10,000
02,00475        2002-C01668           7,500
02,00533          02-089048          10,000
02,00534          02-089048          10,000
02,00565        2002-002172          10,000
99,00584          02-075276           7,500
01,00411        2002-D02249          10,000
02,00586        2002-D02343          10,000
02,00333        2002-B01165          10,000
02,00414          MFC00414           10,000
02,00450        2002-C01597          10,000
02,00613          02-109300          10,000
02,00664        2002-D02706          10,000
02,00877          02-146105          10,000
02,00763          02-131239          10,000
02,00550        MTF02-04100          10,000
02,00680        2002-002782          10,000
02,00584          02-103343          10,000
01,00922          02-129018          10,000
02,00747          02-128031          10,000
02,00850          02-05141            5,000


                    - 16 -
  JPD         REF NO.      AMOUNT QUESTIONED
01,01915     02-106359            10,000
02,00863   MTF 02-05-141          10,000
02,00878     02-146105            10,000
02,00780    2002-E03137           10,000
02,00983     02-F03843            10,000
02,00814   2002-E023212           10,000
02,00988   DPS #E-077039          10,000
02,00666    2002-D02722           10,000
02,00252     02-034121            10,000
99,01217   MTM 08-27-02           10,000
02,01180    2002-G05191            7,500
96,01582     02-204311            10,000
99,01833     02-102088            10,000
01,00109    MTM12-11-01           10,000
                              $ 605,000




                - 17 -
DISTRICT ATTORNEY CASES INCORRECTLY CATEGORIZED AS BOTH
          PROSECUTION AND PRE-TRIAL DETENTION
   DA CONTROL NO.    LE CASE NO.    AMOUNT QUESTIONED
    D02-08126-1       02-144046            3,750
    D02-06360-1       02-094017            5,000
      01-12789       2001-N08447           5,000
    D02-06616-1       02-102027            5,000
      02-01630       2002-B00795           5,000
      02-02837       2002-C01474           5,000
    D02-05439-1       02-068011            5,000
    D02-05080-1       02-059015            5,000
    D01-16062-1       01-355011            5,000
      01-13275       2001-N08770           5,000
      01-06464       2001-F04294           5,000
    D01-12141-1       01-249015            5,000
      01-10670       2002-K07272           5,000
      01-06415       2001-F04233           5,000
      01-06414       2001-F04233           5,000
    D01-14500-1       01-310027            5,000
    D01-09100-1       01-168006            5,000
      01-06627       2001-G04464           5,000
      00-16836            --               5,000
      00-12183        00-159128            5,000
    D02-13146-1       02-284058            3,750
    D03-03877-1       03-022159            3,750
    D02-14184-1       02-313365            3,750
    D02-14459-1       02-321057            5,000
    D02-10442-1       02-208359            5,000
    D02-09429-1       02-179052            5,000
      02-07591      MTF02-07-166           5,000
      02-06236       2002-F03839           5,000
      02-07583      MTF02-03-094           5,000
      02-01319       2001-N08735           5,000
      02-10813      194B-EP-34250          5,000
      02-11312      MTF02-10-242           5,000
      02-11313      MTF02-10-243           5,000
    D02-07001-1       02-111095            5,000
    D02-05793-1       02-076079            5,000
    D03-08667-1       03-155077            3,750
    D03-09189-1       03-171422            3,750
    D03-09038-1       03-167048            3,750
      03-04860      MTF-03-05-294          3,750
    D03-03564-1       03-016026            5,000
      03-01929      MTF-03-01-021          5,000
    D03-05091-1       03-058028            5,000
    D03-04477-1       03-040051            5,000
    D02-15393-1       02-348329            5,000
    D02-15394-2       02-348329            5,000
    D03-11693-1       03-251034            3,750
    D03-10684-1       03-220205            3,750



                         - 18 -
DA CONTROL NO.     LE CASE NO.   AMOUNT QUESTIONED
 D03-09969-1        03-194131           5,000
 D03-09063-1        03-168046           5,000
  D03-00081         03-162084           5,000
   03-07543      MTF03-07-342           5,000
 D03-09099-1        03-169164           5,000
 D03-10443-1        03-212165           5,000
   03-04430      MTF03-04-267           5,000
 D03-06472-1        03-095114           5,000
 D02-07000-1        02-111095           5,000
   04-08017      2003-01300-ID          1,232
 D04-13058-1        04-290106           1,848
 D04-11903-1        04-256122           1,848
 D04-12048-1        04-260087           1,848
 D04-10117-1        04-202161           2,465
 D04-09931-1        04-197039           2,465
   04-06702      MTF04-07-155           2,465
 D04-08872-1        04-168143           2,465
 D04-06821-1        04-111031           2,465
 D04-05198-1        04-063014           2,465
 D03-09121-2        03-170045           2,465
   03-04266       ETF03-04-002          2,465
   02-04965      ASU02-05-028           2,465
 D04-14038-1        04-320036           1,653
 D04-15455-1        04-364039           1,653
 D05-03061-1        05-002057           1,653
 D05-03062-1        05-002057           1,653
 D05-03766-1        05-024110           1,653
 D04-13748-1        04-311064           2,204
 D04-09344-2        04-182010           2,204
 D04-09714-1        04-191099           2,204
 D04-06931-2        04-114023           2,204
   04-01540      ASU04-01-002           2,204
 D03-10220-1        03-202146           2,204
 D05-06046-1        05-093069           1,185
 D05-05463-1        05-075031           1,778
 D05-06573-1        05-109035           1,778
 D05-04211-1        05-038017           1,778
 D05-04353-1        05-042036           1,778
 D05-04979-1        05-060365           1,778
 D05-04112-1        05-035190           2,370
 D05-03690-1        05-022061           2,370
 D04-14643-1        04-339042           2,370
 D05-03810-1        05-026027           2,370
 D04-13946-1        04-317192           2,370
   04-09439      MTF04-10-233           2,370
 D04-12777-1        04-283010           2,370
 D04-11785-1        04-253034           2,370
 D04-12879-1        04-285001           2,370
 D04-07272-1        04-123079           2,370
 D04-05626-1        04-076046           2,370


                      - 19 -
DA CONTROL NO.    LE CASE NO.   AMOUNT QUESTIONED
 D04-06918-1       04-113398           2,370
 D04-03371-1       04-010093           2,370
   03-04050      MTF03-04-212          2,370
   03-04063      2003-C02132           2,370
 D05-09414-1       05-190090           1,254
 D05-11123-1       05-241120           1,881
 D05-08986-1       05-176080           1,881
 D05-08513-1       05-163029           1,881
 D05-07418-1       05-133069           1,881
 D05-07940-1       05-147228           1,881
 D05-06969-1       05-120042           1,881
 D05-07729-1       05-141098           2,508
 D05-05559-1       05-078069           2,508
 D05-05724-1       05-084041           2,508
   05-04096        05-040125           2,508
 D04-13381-1       04-300107           2,508
 D04-12482-1       04-273022           2,508
 D03-13898-1       03-320032           2,508
 D03-12494-1       03-276466           2,508
 D05-13372-1       05-317124           1,330
 D05-11517-1       05-254041           1,994
 D05-12014-1       05-271045           1,994
 D05-11914-1       05-267135           1,994
 D05-09325-1       05-187095           2,659
 D05-11196-1       05-243400           2,659
 D05-10761-1       05-229036           2,659
 D05-10860-1       05-232140           2,659
 D05-09077-1       05-179007           2,659
   05-04125        05-040358           2,659
 D04-15134-1       04-354027           2,659
 D04-12321-1       04-268071           2,659
 D04-11244-1       04-237038           2,659
   04-03210      MTF04-03-065          2,659
 D06-04279-1       06-044084           1,785
 D05-14414-1       05-353069           1,785
   05-07623        05-192163           1,785
   06-01688       06-0100224           1,785
 D05-13186-1       05-311029           2,381
 D05-11058-1       05-239076           2,381
 D05-12458-1       05-288203           2,381
 D05-11476-2       05-253010           2,381
 D05-10912-1       05-234175           2,381
 D05-11234-1       05-245050           2,381
   05-09531        05-227064           2,381
   05-05201        05-131079           2,381
   05-08224        05-070539           2,381
   05-08223        05-070539           2,381
 D05-06897-1       05-118017           2,381
   05-06804      MTF05-02-070          2,381
 D05-03562-1       05-019033           2,381


                     - 20 -
     DA CONTROL NO.          LE CASE NO.         AMOUNT QUESTIONED
        04-11349              04-100573                 2,381
      D04-15056-1             04-352029                 2,381
      D04-06642-1             04-106014                 2,381
        02-11384             ASU0202015                 2,381
        06-00839              C05-0440                  1,616
        06-02548             06-0200502                 1,616
        06-01115             06-0100895                 2,155
      D06-03624-1             06-021322                 2,155
      D05-13209-2             05-312059                 2,155
      D05-13908-2             05-336027                 2,155
      D05-13998-1             05-339133                 2,155
      D05-14080-1             05-343017                 2,155
      D05-14078-1             05-343017                 2,155
        05-09091              05-243052                 2,155
      D05-08404-2             05-160007                 2,155
      D05-03691-1             05-022044                 2,155
      D04-12481-1             04-273022                 2,155
      D04-12279-1             04-267002                 2,155
        03-10161            MTF03-10-429                2,155
      D06-07132-1             06-147101                 1,652
      D06-07483-1             06-159210                 1,652
      D06-07644-1             06-165062                 1,652
      D06-07119-1             06-147018                 2,203
      D06-05677-1             06-096040                 2,203
      D06-05676-1             06-096040                 2,203
      D06-06451-1             06-122374                 2,203
        02-11837            29B-79-34876                2,203
      D06-05299-1             06-082004                 2,203
      D06-03904-1             06-032012                 2,203
        06-04594             06-0300024                 2,203
        05-10747             M7-05-2025                 2,203
        06-01108             06-0100895                 2,203
        05-11178              05-100409                 2,203
      D05-11713-1             05-260188                 2,203
      D05-11342-1             05-248141                 2,203
      D05-08996-1             05-176151                 2,203
      D05-09777-1             05-200005                 2,203
      D04-15088-2             04-352374                 2,203
      D04-15051-1             04-352004                 2,203
        04-08237            MTF04-08-208                2,203
                                                   5
                                                    $ 553,527




5
    The difference in the total amount is due to rounding.


                                  - 21 -
 DISTRICT ATTORNEY   CASES PROSECUTED CONCURRENTLY
DA CONTROL NO.       LE CASE NO.    AMOUNT QUESTIONED
  D01-05294-1         01-067380          10,000
  D04-06752-1         04-108296            4,929
  D03-11997-2         03-262170            7,500
  D03-11997-3         03-262170            7,500
   01-09896            C534415             7,500
  D04-15015-2         04-350286            1,232
  D03-09121-3         03-170045            4,929
  D03-09121-4         03-170045            4,929
   03-03248          MTF03-03-174          7,500
  D02-15394-1         02-348329          10,000
  D03-03948-1         03-025209          10,000
  D03-03948-2         03-025209          10,000
  D06-03060-1         06-002110            3,571
   02-07245          2002-G05019           7,500
  D05-13209-1         05-312059            4,761
  D02-10002-1         02-195237            7,500
  D02-12882-1         02-276232            7,500
  D03-04276-2         03-035206          10,000
  D03-07238-2         03-116247            4,929
  D03-07238-3         03-116247            4,929
  D03-06990-3         03-109262          10,000
  D02-15393-2         02-348329          10,000
  D04-12053-3         04-260097            5,016
  D03-06049-1         03-084027          10,000
  D06-04087-1         06-037170            4,309
   00-18600           00-242343          10,000
   00-18600           00-242343          10,000
   05-07080           M7-05-2005           4,761
  D06-07097-2         06-146243            4,405
  D02-07478-2         02-124316          10,000
  D06-06340-1         06-118242            1,077
   02-01274          2002-A00551           5,000
   03-02698          MTF03-03-154          5,000
  D04-13448-2         04-302017            1,232
  D04-13448-3         04-302017            1,232
  D03-10591-2         03-217239          10,000
  D02-06616-1         02-102027          10,000
  D02-14713-1         02-327206          10,000
  D02-14713-3         02-327206          10,000
   01-09230          2001-H05879         10,000
   02-01567          2002-B00773           7,500
   01-08640           01-067380          10,000
  D02-12972-1         02-278298          10,000
  D04-14240-2         04-326249            1,232
  D04-14240-3         04-326249            1,232
   01-11728           M7-01-0151           7,500
   01-11728           M7-01-0151           7,500
  D06-03920-2         06-032153            4,309
  D06-03921-1         06-032153            4,309


                        - 22 -
    DA CONTROL NO.            LE CASE NO.           AMOUNT QUESTIONED
     D03-03877-1               03-024028                   7,500
     D06-04086-1               06-037170                   4,309
     D05-11517-2               05-254041                   3,989
     D05-03690-1               05-022061                   4,740
     D04-10115-1               04-202070                   4,408
                                                     6
                                                      $ 357,270




6
    The difference in the total amount is due to rounding.


                                  - 23 -
JUVENILE CASES WRONG DISPOSITION CATEGORY
  JPD            REF NO.     AMOUNT QUESTIONED
02,00582     2002-D002273           7,500
02,00877        02-146105           7,500
02,00227     MTF 02-02-049          7,500
02,01969        02-364274           7,500
03,00048     MTF-03-01-018          5,000
01,01532        03-023316           5,000
01,01549        01-292014           5,000
02,01566      MTF02-10248           5,000
02,01717     MTF-02-11-293          5,000
02,00763        02-131239           5,000
02,00005       2002-A0027           5,000
02,01927      MTF0212348            5,000
00,00287        01-274012           5,000
01,01473        01-277220           5,000
02,00379        02-30703            5,000
02,00414        MFC00414            5,000
02,00533        02-08948            5,000
02,00534        02-089048           5,000
02,01715     MTF-02-11-293          5,000
03,00140     MTF03-01-057           5,000
01,01652        01-313041           2,500
01,01713     01-M9201613            2,500
02,01564        02-291202           2,500
03,00245        03-032246           2,500
03,00246        03-032246           2,500
00,00361      2002-C01360           2,500
01,01727        01-328075           2,500
02,00289      2002-B00931           2,500
02,00565      2002-002172           2,500
02,00586      2002-D02343           2,500
02,00863     MTF 02-05-141          2,500
00,00181        01-322203           2,500
02,00613        02-109300           2,500
02,00664      2002-D02706           2,500
02,00747        02-128031           2,500
01,00411      2002-D02249           2,500
02,00450      2002-C01597           2,500
01,00922        02-129018           2,500
01,01608      2001-K07553           2,500
01,01653       01-M07747            2,500
02,00878        02-146105           2,500
02,01887     MTF 02-12339           2,500
98,01281     MTF-02-12-323          2,500
02,00983        02-F03843           2,500
02,00680      2002-002782           2,500
99,00903        01-313040           2,500
97,01009     MTF01-010230           2,500
02,01885     MTF 02-12340           2,500
01,01671        01-313040           2,500


                  - 24 -
    JPD             REF NO.      AMOUNT QUESTIONED
  01,01672        01-314357             2,500
  02,00148       2002-A00503            2,500
  02,01591       MTF02-10-255           2,500
  02,00584        02-103343             2,500
  01,01875        01-349028             2,500
  01,01437       MFT01-09-203           2,500
  02,00814       2002-E023212           2,500
  02,00550       MTF02-04100            2,500
  02,01800       MTF 02-12315           2,500
  01,00721       MTM10-23-01            2,500
  02,00333       2002-B01165            2,500
  02,01870        02-349020             2,500
                                    $212,500

    JUVENILE   CASES NOT FEDERALLY INITIATED
    JPD             REF NO.      AMOUNT QUESTIONED
  02,00252         02-034121           10,000
  99,01833         02-102088           10,000
  99,01217       MTM 08-27-02          10,000
  00,01747         02-026072           10,000
  02,00988       DPS #E-077039         10,000
  01,01927         03-083336            5,000
  96,01582         02-204311           10,000
  01,01915         02-106359           10,000
  02,00780        2002-E03137          10,000
  01,00752         01-174027           10,000
                                     $95,000

DISTRICT ATTORNEY CASES NOT FEDERALLY INITIATED
    JPD             REF NO.      AMOUNT QUESTIONED
D06-03734-1        06-026037            4,309
 05-09060          05-246103            4,309
 05-09218          05-253100            4,309
 03-07840          03-166062            4,408
D04-06528-1        04-102027            4,740
 04-07517          04-216035            4,929
 04-07515          04-216035            4,929
D03-13542-1        03-310004            4,929
D04-12800-1        04-283025            5,318
D03-12535-2        03-277342            7,500
                                     $49,680




                      - 25 -
           JUVENILE CASES CONCURRENTLY PROSECUTED
           JPD            REF NO.      AMOUNT QUESTIONED
         03,00409        03-059194             7,500
         03,00260      MTF-03-02-095          10,000
         03,00259      MTF-03-02-096          10,000
                                            $27,500

        JUVENILE CASES SUBMITTED IN INCORRECT QUARTER
           JPD            REF NO.      AMOUNT QUESTIONED
         03,00049      MTF-03-01-018           5,000
         04,00862      06-144421 EPP           1,652
                                             $6,652

JUVENILE CASES INCORRECTLY CATEGORIZED AS BOTH PROSECUTION AND
                     PRE-TRIAL DETENTION
           JPD            REF NO.      AMOUNT QUESTIONED
         05,01738      06-102014 EPP           1,616
                                             $1,616




                            - 26 -
                                                                                                                               APPENDIX IV




                                                      COUNTY OF EL PASO
                                                      OFFICE OF THE COUNTY AUDITOR
EDWARD A. DlON , CPA, CIO                                                                                      C tJUnty    Ad n1illi ~trollvt: omt~S

COU NTY AUDITOR                                                                                               ~HO   ...:tl ... t OVM' IHnn Sln>et, Kro. 406
cdionh,t cpcounty.com                                                                                           fo:t PASO, ITXAS 79001 ,14U"1
W\\ \\ . ~1Jo.:;HHnl~ ,(,Hllti.mdih lr                                                                                     t<l15) , \4(,-2040
                                                                                                                                  '
                                                                                                                        1(15) .",.6·K' 72 FAX
                 05-09                                                  May \2,2010



                 Mr. David M. Sheeren
                 Regional Audit Manager
                 Office of the Inspector General
                 1120 Lincoln, Suite 1500
                 Denver, Colorado 80203

                  Dear Mr. Sheeren:

                         As requested in your letter dated April 19, 20 I 0, copy attached, please find enclosed the
                  response from the County of EI Paso, Texas.

                  J.               EI Paso County's SWBPI program was audited twice by OIG. The original audit had two
                                   Recommendations . One of those was to repay $3.8 million and the sccond was to devclop
                                   Policies and Procedures. We complied with the second requirement and developed Policies
                                   and Procedures that were accepted by OJP. We then worked for several months. reviewing
                                   every questioned case and preparing packets of material justifYing our billings.

                 2.                In preparing packets and responding to OJP, EI Paso relied upon approved Policies &
                                   Procedures for billing. EI Paso submitted boxes of material, providing an analysis of each of
                                   its billings. In many cases OJP agreed with EI Paso County's challenges. and EI Paso County
                                   was generally satisfied with OJP's resolution of several categories of questioned cases. ]n
                                   some areas, EI Paso COWlty could not verifY the number of cases and the billings amounts
                                   that had been questioned by OIG in the first audit. After repeated questions and challenges
                                   by EI Paso County, OIG re-audited EI Paso County in greater depth.

                  3.               The second auditors immediately rejected the case resolutions that had been accepted by OJP.
                                   and the positions taken by the second audit team from OIG rendered the Policies and
                                   Procedures that had j list been accepted by OlP obsolete and useless.

                 4.                EI Paso County has made every effort to properly interpret the Guidelines published by OJP
                                   even though many Guidelines changed subsequent to the County' s billings. The County
                                   ack nowledges that it made some errors based on limited Guidelines which were subsequently
                                   c1aril1ed, particularly early in the program. Based on the County's interpretation of
                                   Guidelines early on, computer programs were written and did not work properly, and this
                                   resulted in mistakes. particularly with the juvenile cases. In many other instances. there were
                                   fundamental differences of opinion as to how to read and interpret the Guidelines. This was
                                   a major weakness in the SWBPI Program, particularly when OJP and OIG reached different
                                   conclusions and provided inconsistent feedback . Compliance with the Guidelines and their
                                   continuolls changes. remains very frustrating and requires an excessive amount of County
                                   staff time and etfort.




                                                                          - 27 -
Mr. David M. Sheeren
May 6, 2010
Page 2


5.     During the period El Paso County was being audited, OJP was also audited by OIG. OJP's
       internal processes were found to be poor, difficult to follow, and a long list of
       Recommendations was issued for OJP to use to improve 1he SWBPI Program. The response
       by OJP made the information gathering process for SWBPI Program even more burdensome
       and resulted in even less reimbursement of County costs.

6.     We appreciate that OIG's Draft Audit Report acknowledges 1hat 1here were no material
       control weaknesses or significant non-compliance issues. El Paso County has and continues
      -tomakeevery-effoti:to-ttmrm1tCcuratebillings;-WherrOm-disagreedwttlrelementsof-our
       case billing practices, El Paso County immediately discontinued the billing practices.

7.     It is most important to El Paso County iliat OIG and OJP understand and recognize that we
       have been diligent, open, honest and billed our cases in good firith;

8.     Even though El Paso County often disagreed with OIG's interpretation of the OJP's
       Guidelines, 1he County prepared exhaustive responses and provided our legal analysis and
       justification, each time the County's position was resolved against the County by OIG, even
       when OJP agreed with a different resolution;

9.     El Paso County has become aware after going 1hrough 1he audit that we both billed cases that
       were not allowed and we failed to bill cases that were allowed;

10.    El Paso County has labored with great frustration and will ensure that it does not find itself in
       this situation again, especially after 1housands of man-hours have been spent responding to
       the two audits. In light of the outcome of the second audit, El Paso County's interest in
       continuing to participate in 1he SWBPI Program is at an all time low, and there is genuine
       and sincere discussion of wi1hdrawing the County's services.        The County's continued
       participation in: (1) responding to 911 calls from Federal agencies; (2) taking federally
       referred prisoners into County custody, and (3) prosecuting federally referred cases is
       currently in jeopardy. The County cannot withstand continued financial burden regarding
       this program especially when it is not mutually beneficial.

11.    We understand that the County's role in prosecuting federally referred cases is fundamental
       to the Federal government's ability to handle 1he criminal case load in 1he region. It is time
       to reexamine the federal referral process to one iliat is based on clear concise guidelines and
       that is mutually beneficial to El Paso County and 1he Federal Government.

        We look forward to bringing closure on this pending issue, ifEl Paso County can be of any
further assistance in this endeavor, please let us know.

                                               Very truly yours,


                                               ~
                                               Edward A. Dion
                                               County Auditor
EAD:WH:ya




                                               - 28 -
                                                                                          APPENDIX V
                                                      u.s. Department of Justice
                                                      Office of Justice Programs

                                                      Office of Audit. Assessment, and Management


                                                      Washington. D.C. 20531

     MAY 1 0 2010l
MEMORANDUM TO:                 David M. Sheeren
                               Regional Audit Manager
                               Office of the Inspector General
                               r:>en.verRegiomU AUclit()ffi~

FROM:                          Maureen A. H~nneberg ~
                               Director     ~...     -                         0
SUBJECT:                       Response to the Draft Audit Report, Office ofJustice Programs,
                               Southwest Border Prosecution Initiative Funding, Received by
                               El Paso County, Texas

This memorandum is in response to your correspondence dated April 19, 2010, transmitting the
above draft audit report for E1 Paso County (County). We consider the subject report resolved
and request written acceptance of this action from your office.

The report contains 11 recommendations and $5,100,526 in questioncd costs. For ease of
review, the draft audit report recommendations are restated in bold and are followed by the
Office of Justice Program's (OJP) response.

1.       We recommend that OJP remedy the S2,411,781 in questioned costs received by
         EJ Paso County for 572 bond forfeiture cases submitted by the County Attorney's
        Office that were not F,,>deraJly initiated.

        We agree with the recommendation. We will coordinate with the County to remedy
        the $2,411,781 in questioned costs related to the 572 bond forfeiture cases that were
        not Federally initiated and submitted for reimbursement under the Southwest Border
        Prosecution Initiative program.

2.      We recommend that OJP remedy the $780,000 in questioned costs received by
        EI Paso County for 81 juvenile cases whicb were disposed of in FY 2001, prior to
        tbe inception of the program.

        We agree with the recommendation. We will coordinate with the County to remedy
        the $780,000 in questioned costs related to the 81 juvenile cases which were disposed
        of in FY 2001, prior to the inception of the program.




                                             - 29 -
3.   We recommend that OJP remedy the $605,000 in questioned costs received by
     EI Paso County for 63 juvenile cases which were duplicates, already previously
     claimed.

     We agree with the recommendation. We will coordinate with the County to remedy
     the $605,000 in questioned costs received by the County for 63 juvenile cases which
     were duplicates, and previously claimed.

4.    We recommend that OJP remedy the $553,527 in questioned costs received by
      EI Paso County for 187 cases submitted by the District Attorney's Office under
      the prosecution and pre-trial detention category that did not meet the requirements      ------   ---- -
     -fol"pre;.trialltetenttoHre1It1tnlrSemenL --- - -        -- -- -----             -

     We agree with the recommendation. We will coordinate with the County to remedy
     the $553,527 in questioned costs related to the 187 cases submitted by the District
     Attorney's Office under the prosecution and pre-trial detention category that did not
     meet the requirements for pre-trial detention reimbursement.

5.   We recommend that OJP remedy the $357,270 in questioned costs received by
     El Paso County for 54 cases submitted by the District Attorney's Office that were
     investigated or prosecuted during concurrent periods of time with cases involving
     the same defendant that were also SUbmitted for reimbursement.

     We agree with the recommendation. We will coordinate with the County to remedy
     the $357,270 in questioned costs received by the County for 54 cases submitted by
     the District Attorney's Office that were investigated or prosecuted during concurrent
     periods oftime with cases involving the same defendant that were also submitted for
     reimbursement.

6.   We recommend that OJP remedy the $212,500 in questioned costs received by
     EI Paso County for 61 juvenile cases tbat were erroneously submitted in the
     wrong disposition category, based on the number of days from arrest to disposition.

     We agree with the recommendation. We will coordinate with the County to remedy
     the $212,500 in questioned costs related to 61 juvenile cases that were erroneously
     submitted in the wrong disposition category, based on the number of days from arrest to
     disposition.




                                             2




                                          - 30 -
7.    We recommend tbat OJP remedy tbe $95,000 in questioned costs received by
      EI Paso County for 10 juvenile cases that were not Federally initiated.

      We agree with the recommendation. We will coordinate with the County to remedy
      the $95,000 in questioned costs received by the County for 10 juvenile cases that were
      not Federally initiated.

8.    We recommend that OJP remedy the $49,680 in questioned costs received by
      EI Paso County for 10 cases submitted by the District Attorney's Ofiue that were
      not Federally initiated.
         -- - -        - ----            -   --------


      We agree with the recommendation. We will coordinate with the County to remedy
      the $49,680 in questioned costs received by the County for 10 cases submitted by the
      District Attorney's Office that were not Federally initiated.

9.    We recommend that OJP remedy the $27,500 in questioned costs received by
      EI Paso County for three juvenile cases that were investigated or prosecuted during
      concurrent periods of time with cases involving tbe same defendant that were also
      submitted for reimbursement.

      We agree with the recommendation. We will coordinate with the County to remedy
      the $27,500 in questioned costs received by the County for three juvenile cases that were
      investigated or prosecuted during concurrent periods of time, with cases involving the
      same defendant that were also submitted for reimbursement.

10.   We recommend tbat OJP remedy the $6,652 in questioned costs received by
      EI Paso County for two juvenile cases that were not submitted for reimbursement
      in the same quarter in which the cases were disposed.

      We agree with the recommendation. We will coordinate with the County to remedy
      the $6,652 in questioned costs received by the County for two juvenile cases that were
      not submitted for reimbursement in the same quarter in which the cases were disposed.

1J.   We recommend tbat OJP remedy the $1,616 in questioned costs received by
      El Paso County for one juvenile ease submitted under both the prosecution and
      pre-trial detention category that did not meet tbe requirements for pre-trial
      detention reimbursement.

      We agree with the recommendation. We will coordinate with the County to remedy
      the $1,616 in questioned costs received by the County for one juvenile case that was
      submitted under the prosecution and pre-trial detention category that did not meet the
      requirements for pre-trial detention reimbursement




                                               3




                                             - 31 -
We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Carol Poole
       Acting Deputy Director for Programs
       Bureau of Justice Assistance                                                              ..   -




       Jill Young
       Division Chief
       Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

       Joseph Husted
       Policy Advisor
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

      OJP Executive Secretariat
      Control Number 20100670




                                              4




                                           - 32.-
                                                          APPENDIX VI

              ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE REPORT

       The OIG provided a draft of this audit report to OJP and to
El Paso County. OJP’s response is incorporated in Appendix V of this
final report. OJP agreed with each of our recommendations and our
report is therefore resolved. A summary of the actions necessary to
close each recommendation follows later in this appendix. The El Paso
County response is incorporated in Appendix IV of this final report.
We provide the following reply to some of the statements made by
El Paso County in its response to the draft report.

       El Paso County correctly stated that its SWBPI program was
audited twice by the OIG. The OIG issued an audit report in
September 2007 questioning $3.9 million of the SWBPI
reimbursements received by El Paso County. As part of the follow-up
process for that audit, and in responding to El Paso County’s request
for information related to the number of cases and amounts
questioned in the prior report, the OIG found errors we had made in
the prior report related to amount of questioned costs. We therefore
initiated a new audit and requested that OJP suspend follow-up
activities with El Paso County on the prior audit. While the OIG regrets
any problems that resulted from the new audit, we believe that a
second, more comprehensive review was the only way to ensure that
our audit results were accurate.

      In conducting this new audit we considered documentation from
the previous audit and any new analysis and documentation provided
by El Paso County. For example, the prior audit report included cases
that were questioned because they did not meet the overnight
requirement for the detention portion of the reimbursement since,
according to the case listing provided at the time of the audit by
El Paso County, the defendant was booked and released on the same
day. In conducting the new audit, we examined additional
documentation provided by El Paso County, including police reports.
Where appropriate, we credited El Paso County for documentation
supporting that the defendant was detained in a secure facility, such
as a holding cell in a police substation, the day prior to being released.

      El Paso County also stated that the OIG rejected resolutions that
El Paso County had reached with OJP related to the recommendations
in the prior audit. The OIG’s role in the audit process is to collect the


                                  - 33 -
facts and make independent assessments about whether program
guidelines were followed. For this audit, OJP is the program office
within the DOJ that decides what corrective action is required by the
recipient based on its assessment of our findings. The cases we
questioned were based on non-compliance with the SWBPI program
guidelines, not any arbitrary determination or resolution with OJP. The
criteria that we used in the evaluation of these cases are contained in
the SWBPI guidelines that El Paso County agreed to abide by when it
accepted over $13.4 million in OJP funds. We questioned only those
cases that clearly conflicted with those guidelines.

      El Paso County also stated that “We appreciated that OIG’s Draft
Audit Report acknowledges that there were no material control
weaknesses or significant non-compliance issues.” The statement that
El Paso County is referring to is from Appendix I of this report and was
not related to the OIG’s assessment of El Paso’s administration of its
SWBPI program. Instead the statement summarizes the findings of
another audit performed by a different audit organization under the
Single Audit Act for El Paso County’s fiscal year 2007.9 The Single
Audit Act audit reviewed El Paso County’s overall financial statements,
schedule of expenditures of federal awards, internal controls over
major programs, compliance with requirements that may have a direct
and material effect on its major programs, and prior audit findings.
However, the Single Audit Act auditors did not specifically review
El Paso County’s SWBPI reimbursements as the OIG did.

       To ensure the accuracy of the cases questioned in this report
and the resulting $5.1 million in questioned costs, we provided El Paso
County with listings of all cases we questioned in this audit. We also
provided El Paso County with the opportunity to submit any additional
documentation related to the questioned cases. Further, we met with
El Paso County officials multiple times to discuss any additional
information they wanted to provide. Finally, while El Paso County
takes issue with the process of being audited twice, it did not dispute
the accuracy of the findings in our current audit, and it acknowledged
in its response that El Paso County became aware after going through
the audit that it billed cases that were not allowed.



       9
           Single Audits are required to be performed for organizations that expend
$500,000 or more in federal awards in accordance with the Single Audit Act of 1984,
as amended, and Office of Management and Budget (OMB) Circular A-133. A private
certified public accounting firm in El Paso, Texas, conducted El Paso County’s fiscal
year 2007 Single Audit.


                                        - 34 -
Status of Recommendations:

1.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the
     $2,411,781 in questioned costs received by El Paso County for
     the 572 unallowable bond forfeiture cases submitted by the
     County Attorney’s Office that were not federally initiated.

2.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the
     $780,000 in questioned costs received by El Paso County for the
     81 unallowable juvenile cases which were disposed of in
     FY 2001, prior to the inception of the program.

3.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the
     $605,000 in questioned costs received by El Paso County for the
     63 unallowable juvenile cases which were duplicates, already
     previously claimed.

4.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the
     $553,527 in questioned costs received by El Paso County for the
     187 unallowable cases submitted by the District Attorney’s Office
     under the both prosecution and pre-trial detention category that
     did not meet the requirements for pre-trial detention
     reimbursement.

5.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the
     $357,270 in questioned costs received by El Paso County for the
     54 unallowable cases submitted by the District Attorney’s Office
     that were investigated or prosecuted during concurrent periods
     of time with cases involving the same defendant that were also
     submitted for reimbursement.

6.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the
     $212,500 in questioned costs received by El Paso County for the
     61 unallowable juvenile cases that were erroneously submitted
     in the wrong disposition category, based on numbers of days
     from arrest to disposition.




                               - 35 -
7.    Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $95,000 in
      questioned costs received by El Paso County for the
      10 unallowable juvenile cases that were not federally initiated.

8.    Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $49,680 in
      questioned costs received by El Paso County for the
      10 unallowable cases submitted by the District Attorney’s Office
      that were not federally initiated.

9.    Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $27,500 in
      questioned costs received by El Paso County for the three
      unallowable juvenile cases that were investigated or prosecuted
      during concurrent periods of time with cases involving the same
      defendant that were also submitted for reimbursement.

10.   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $6,652 in
      questioned costs received by El Paso County for the two
      unallowable juvenile cases that were not submitted for
      reimbursement in the same quarter in which the case was
      disposed.

11.   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $1,616 in
      questioned costs received by El Paso County for the one
      unallowable juvenile case submitted under the both prosecution
      and pre-trial detention category that did not meet the
      requirements for pre-trial detention reimbursement.




                                - 36 -
